   May 12, 2003




Acquisition


Acquisition Management
of the RAH-66 Comanche
(D-2003-087)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CAIG                  Cost Analysis Improvement Group
EMD                   Engineering and Manufacturing Development
IPT                   Integrated Product Team
RCOA                  Restructure Course of Action
              Office of the Inspector General of the Department of Defense
Report No. D-2003-087                                                                       May 12, 2003
     (Project No. D2002AL-0150)

                  Acquisition Management of the RAH-66 Comanche

                                          Executive Summary

Who Should Read This Report and Why? Army, DoD, and other officials interested
in the actions taken by the Army to restructure the RAH-66 Comanche Helicopter
Program should read this report. The report discusses the action the Army took to
restructure, reorganize, and improve the program and reduce the level of program risk.

Background. Historically, the Comanche Program has experienced funding problems,
changing requirements, and technology issues that resulted in restructuring actions. In
September 2001, the Army reported a baseline breach, requiring a fifth program
restructure. On October 17, 2002, the Under Secretary of Defense for Acquisition,
Technology, and Logistics approved a Restructured Course of Action. According to an
independent cost estimate, an additional $4.0 billion (then-year dollars)∗ will be required
to complete the Engineering and Manufacturing Development Phase of the Comanche
Program acquisition.

Results. The Army took constructive actions to improve management, oversight, and
performance of the Comanche Program acquisition. The Army restructure provided
additional funding for the Engineering and Manufacturing Development Phase,
incorporated the Block acquisition strategy, extended the schedule for Comanche aircraft
development, and added all component qualification testing. The Comanche Project
Office and the Contractor Program Office initiated action to reorganize and streamline
the program management structure and integrated product teams, which minimized
duplication of effort and improved communication, accountability, and authority. In
addition, studies to improve the efficiency of the production lines were conducted.

Constructive actions have been taken to restructure, reorganize, and improve the program
and to reduce the level of program risk. However, continued emphasis is needed to
ensure that technical and system integration issues will not arise that could result in future
breaches of program cost, schedule, and performance measures. We did not test
management controls because data related to program performance after the Restructure
Course of Action did not exist at the time fieldwork was conducted.



∗
    Then-year dollars are dollars that include the effects of inflation and/or escalation and or reflect the price
    levels expected to prevail during the year at issue. FY 2000 was the base-year used to calculate then-year
    dollar amounts in this report.
Management Comments. Although no comments were required, the Comanche Project
Office provided suggestions for minor changes to the final report. Those suggestions
were considered in preparing this report.




                                         ii
Table of Contents

Executive Summary                                    i

Background                                           1

Objectives                                           2

Finding
     RAH-66 Comanche Restructure Course of Action    3

Appendixes
     A. Scope and Methodology                       12
          Prior Coverage                            13
     B. Comanche History                            14
     C. Acquisition Program Baseline                19
     D. Management Tenure                           20
     E. Block Requirements                          21
     F. Comanche Program Schedule                   22
     G. FY 2003 Performance Tasks                   23
     H. Risk Mitigation                             25
     I. Third Party Assessments                     28
     J. RAH-66 Comanche Organization                31
     K. Old Contractor Organization                 32
     L. New Contractor Organization                 34
     M. Integrated Product Team Organization        35
     N. Report Distribution                         36
Background

           The RAH-66 Comanche helicopter (Comanche) is the Army's future armed
           reconnaissance helicopter, designed to operate with a minimal logistical burden
           while serving as the eyes of the commander in the 21st century battle space. As a
           member of the Objective Force1 air-ground task force, Comanche units will
           conduct the following operations: reconnaissance, mobile strike, close combat
           with ground forces, support of divisional air assaults, and on-site command and
           control of air-ground maneuver teams. One-third of the Comanche helicopters
           will be equipped with fire control radar similar to the Longbow fire control radar
           installed on the AH-64D Apache helicopter. The system will provide battlefield
           capability in day, night, and adverse weather operations.

           According to the history provided by the Comanche Project Office, the Comanche
           Program had its inception in June 1983 as an effort to build a family of high
           technology, low cost, light aircraft to replace the Army’s aging fleet of
           reconnaissance and attack helicopters. Historically, the Comanche has
           experienced funding problems, changing requirements, and technology issues and
           has been restructured five times since its inception. The history provided by
           personnel in the Comanche Project Office stated that the fifth restructure occurred
           as a result of a baseline breach that was reported by the Comanche Project Office
           on September 2, 2001. In response, the Army reorganized the program structure,
           rebaselined costs, extended schedule targets, and established a new management
           structure. The Army’s Restructure Course of Action (RCOA) for the Comanche
           Program was reviewed by the Defense Acquisition Board on October 7, 2002, and
           approved by the Under Secretary of Defense for Acquisition, Technology, and
           Logistics on October 17, 2002. See Appendix B for more detailed information of
           the history of the Comanche Program.

           The Comanche Project Manager, under the Army Program Executive Officer for
           Aviation, Huntsville, Alabama, manages the design and development of the
           Comanche Program. The contractor for the Comanche is the Boeing Sikorsky
           RAH-66 Comanche Team. Comanche is the Army’s largest aviation acquisition
           program with a projected total acquisition cost of about $39.3 billion (then-year
           dollars).2 Of the $39.3 billion, $12.2 billion is for Research, Development, Test,
           and Evaluation and $27.0 billion is for procurement. Based on data contained in

1
    The Objective Force is a term that encompasses a complete transformation of the U.S. Army. The
    Objective Force will include more than just new combat systems. It will also include a new organization,
    new training techniques, and a new way of conducting warfare.
2
    All dollar amounts in this report are based on then-year dollars except where noted. Then-year dollars are
    dollars that include the effects of inflation or escalation and/or reflect the price levels expected to prevail
    during the year at issue. FY 2000 was the base-year used to calculate then-year dollar amounts in this
    report.

                                                          1
    the Comanche Selected Acquisition Report, and additional data provided by the
    Comanche Project Office, we calculate that as of October 2002, the Comanche
    Project Office has spent $6.0 billion in Research, Development, Test, and
    Evaluation funds. The CAIG-estimated cost to complete the Engineering and
    Manufacturing Development Phase is approximately $6.2 billion from FY 2003
    through completion. Current Army plans call for the acquisition of
    650 Comanche helicopters (4 funded with Research, Development, Test, and
    Evaluation funds) through FY 2019, with a low rate initial production quantity of
    up to 73 aircraft. The CAIG-estimated cost of the 646 Comanche helicopters to
    be purchased using Procurement funds is approximately $27.0 billion.
    Appendix C provides details on the acquisition program baseline costs.

    According to the Comanche Project Office, after almost 3 years of managing the
    Comanche Program, the current Comanche Project Manager is scheduled to leave
    in 2003, and the Army has selected the new Comanche Project Manager. Since
    1991, the average tenure of a Comanche Project Manager has been 3 years. See
    Appendix D for the management tenure of the Comanche Program.


Objectives

    The overall audit objective was to evaluate the acquisition management of the
    RAH-66 Comanche. Specifically, we reviewed the action taken to restructure the
    Comanche acquisition and improve the management and oversight of the
    Comanche Project Office. We did not test management controls because data
    related to program performance after RCOA did not exist at the time fieldwork
    was conducted. See Appendix A for a discussion of the audit scope and
    methodology and prior audit coverage related to the objectives.




                                        2
            RAH-66 Comanche Restructure Course
            of Action
            On October 17, 2002, the Under Secretary of Defense for Acquisition,
            Technology, and Logistics approved a Restructure Course of Action
            (RCOA) for the RAH-66 Comanche Helicopter (Comanche) Program.
            RCOA provided an additional $4.0 billion in funding for Engineering and
            Manufacturing Development (EMD), established a new acquisition
            baseline that decreased the number of aircraft to be procured, established
            the Block acquisition strategy, extended the schedule for Comanche
            aircraft development, improved risk management techniques, and added
            all component qualification testing.

            In conjunction with RCOA, the Comanche Project Office and the
            Contractor Program Office initiated action to reorganize and streamline
            the program management structure and integrated product teams (IPTs),
            which minimized duplication of effort and improved communication,
            accountability and authority. In addition, studies to improve the efficiency
            of the production lines were conducted.

            Constructive actions have been taken to restructure, reorganize, and
            improve the Comanche Program and to reduce the level of program risk.
            However, continued emphasis is needed to ensure that technical and
            system integration issues will not arise that could result in future breaches
            of program cost, schedule, and performance measures.


Restructure Course of Action

     Based on an independent cost estimate of the Cost Analysis Improve Group
     (CAIG), the Research, Development, Test, and Evaluation funds increased from
     $8.3 billion in July 2000 to $12.2 billion in October 2002. RCOA provided an
     additional $4.0 billion for EMD and established a new baseline that decreased the
     number of helicopters to be procured from 1,213 to 650. The CAIG indicated that
     total procurement costs decreased from $39.4 billion to $27.0 billion. Based on
     those CAIG estimates, we calculated that the average unit cost increased from
     $32.7 million to $41.8 million. The RCOA established the Block acquisition
     strategy and extended the schedule for Comanche aircraft development. The
     delivery date for the first-unit-equipped aircraft was extended 7 months and the
     delivery date for the first Comanche aircraft with initial operational capability was
     extended 33 months. Those extensions provide a more realistic schedule for
     program development. RCOA also improved risk management techniques and
     included qualification testing for all components.

                                           3
Baseline Breach. The EMD Phase of the Comanche development began
following a Milestone II decision in April 2000. Officials of the Comanche
Project Office stated that on September 1, 2001, the Comanche Project Manager
informed the Secretary of the Army and Army Chief of Staff that Milestone II
cost, schedule, and performance commitments could not be accomplished. They
also stated that the Army Chief of Staff approved interim direction to discontinue
the Milestone II program and re-plan the engineering and manufacturing
development work to be conducted in FY 2002 and beyond.

Cost Analysis Improvement Group Estimating Process. EMD started in
FY 2000 with completion planned for FY 2011. During the summer and early fall
of 2002, DoD’s Cost Analysis Improvement Group (CAIG) was asked to perform
a limited cost assessment of the Comanche Program for the Comanche
Overarching Integrated Product Team and the Defense Acquisition Board.
According to the CAIG estimate for RCOA, the Comanche Program EMD Phase
will cost $6.5 billion (FY 2002 dollars) at completion.

New Acquisition Program Baseline. On October 17, 2002, the Under Secretary
of Defense for Acquisition, Technology, and Logistics approved the proposed
Acquisition Program Baseline for the Comanche, requiring the Army to program
funds for Research, Development, Test, and Evaluation and Procurement to the
estimates and funding profile established by CAIG. The Under Secretary of
Defense for Acquisition, Technology, and Logistics reduced the Comanche
procurement objective from 1,213 aircraft, approved at Milestone II Acquisition
Program Baseline on July 7, 2000, to 650 aircraft and approved a procurement
rate of 60 aircraft per year. Research, Development, Test, and Evaluation cost
increased from $8.3 billion to $12.2 billion. We calculated that the average
procurement unit cost increased from $32.7 million to $41.8 million. However,
total Procurement cost decreased from $39.4 billion to $27 billion, and total life-
cycle-cost decreased from $86.7 billion to $68.5 billion. See Appendix C for
additional information.

Acquisition Block Strategy. The Comanche uses evolutionary (time-phased)
principles for development, production, and fielding that are designed to meet
user mission needs required over time. The strategy is defined by “Blocks” of
capability that were developed as a balance between providing mission
capabilities and minimizing program execution risk. The Comanche Project
Manager stated that an independent assessment study recommended that the
RCOA use a three block acquisition strategy instead of a two block acquisition
strategy. The study recommended that Comanche move five Block I threshold
requirements to Block II. As a result, Block I requirements for the Comanche
radar, Link-16 communication system, satellite communications, Level IV
unmanned aerial vehicle control, and turreted gun system full accuracy were
redefined as objectives for Block 1 and threshold requirements for Block II. See
Appendix E for details of the Block requirements.

                                     4
Comanche Schedule. RCOA extended the time frame for development of the
Comanche aircraft. The delivery of the first-unit-equipped aircraft was extended
7 months and the first Comanche aircraft with initial operational capability was
extended 33 months. Table 2 depicts a comparison between Milestone II EMD
timelines and the RCOA timelines.

                       Table 2. Comparison of Schedules
                                            Milestone II        RCOA
 Aircraft No. 3 delivery                    February 2004       December 2004

 Aircraft No. 3 first flight                April 2004          March 2005
   (developmental testing)
 Start operational test                     August 2004         April 2006

 Limited user test                          May 2005            September 2006

 Low rate initial production long lead      October 2003        November 2005

 Low rate initial production Defense        June 2005           December 2006
    Acquisition Board
 First-unit-equipped (18 aircraft)          December 2008       June 2009

 Milestone III decision                     December 2006       August 2009

 Initial operational capability             December 2006       September 2009


FY 2003 Milestones. RCOA reduced the number of milestones scheduled for
completion in FY 2003 from 15 to 5. Table 3 shows milestones scheduled for
completion in FY 2003.

                                  Table 3. Milestone Schedule
 Date                                       Milestone
 May 2, 2003                        Weigh the main transmission

 May 9, 2003                        Start major assembly of Aircraft No. 3

 July 1, 2003                       Complete radar stationary target development

 July 23, 2003                      Integrate the Engineering and Manufacturing
                                       Development flight control software
 September 3, 2003                  Complete the armament critical design review
                                      (less armament interface unit)
                                        5
Table 4 depicts the schedule extension of the other 10 milestones.

                           Table 4. Schedule Extension

                                              Milestone II     RCOA

 Operational Flight Program 10.20             November 2002    April 2004

 Full Electro-Optical Sensor System           December 2002    April 2004
 1st flight (Aircraft No. 2)

 Aviation Combined Arms Team                  January 2003     January 2004
 Trainer Access for Training
 development

 Aviation Combined Arms Team                  June 2003        January 2004
 Trainer available at the training site

 Comanche Radar hardware                      June 2003        March 2006

 First Integrated Communications,             August 2003      April 2004
 Navigation and Identification
 Avionics hardware

 Force Development, Test, and                 August 2003      May 2005
 Experimentation training complete

 Static Test Article complete                 September 2003   September 2004

 Clear Voice First Integrated                 October 2003     December 2004
 Communications, Navigation and
 Identification Avionics Operational
 Flight Program

 Mission Equipment Package                    October 2003     July 2004


See Appendix F for the RCOA schedule with milestones beginning in FY 2004.
To meet the FY 2003 milestones, the Comanche Program must first complete
certain performance tasks. See Appendix G for applicable FY 2003 performance
tasks.

Risk Mitigation. The Comanche risk management process was designed to
identify areas that require special attention and close scrutiny during the design
and development phase so that technical performance, cost, schedule,
supportability, and producibility goals of the Comanche Program are achieved.

                                          6
    The Comanche risk management program uses a software tool that provides a
    standardized set of risk assessment criteria in order to establish a program risk
    baseline, document abatement plans, and monitor progress status. The Comanche
    risk monitoring method includes a tiered review process where each risk item,
    from lowest IPT level to program level, is assessed and re-assessed for potential
    impacts at the higher level. The original Milestone II process emphasized
    program-level tracking only for high-risk items; however, the revised risk
    management process stresses increased awareness of all risk items across multiple
    echelons of IPTs, and risk mitigation step management at the lowest appropriate
    IPT level. According to the Comanche Project Office, moderate risks are
    monitored in a similar manner as high risks.

    The Army directed that the restructured Comanche Program could not have any
    high-risk items. On October 18, 2002, the Comanche Program reported that there
    were no high risks, and 19 moderate risks carried at the program level. The
    Milestone II program had identified nine high-level program risks. The
    Comanche Project Office lowered all nine high-level program risks to moderate
    or low-level program risks under the restructured program. The Comanche
    Project Office believes that RCOA mitigated the original Milestone II integration
    and technical risks items by expanding the schedule and providing additional
    resources. The risk assessment process is continuous, and new risks have been
    identified during the process of developing the restructured program. However,
    no high risks have been identified. See Appendix H for more information on the
    risk mitigation plan.

    Qualification Testing. Qualification testing simulates defined operational
    environmental conditions with a predetermined safety factor, the results indicating
    whether a given design can perform its function within the simulated operational
    environment of a system. Since RCOA expanded the schedule and provided
    additional funds, many of the subcontractors added full qualification testing to
    their schedules. The added qualification testing will help reduce system
    integration risks.


Organizational Restructure

    Throughout the history of the program, the Comanche Project Office and its
    contractor have been criticized for poor performance. In reports dated from 1997
    to 2001, the Inspector General of the Department of Defense, and the General
    Accounting Office reported that the Comanche Program faced significant risks
    related to cost overruns, scheduling delays, and degraded performance. In an
    effort to improve program management, the Comanche Project Office and the
    Contractor Program Office have reorganized to streamline the program’s
    management structure and established a more effective IPT approach to managing

                                         7
program issues. Additionally, the Army has made use of outside studies and
assessments to evaluate the program. See Appendix I for details of the outside
studies and assessments.

Comanche Project Office Reorganization. The current Project Manager
recognized that the Comanche Project Office was not properly organized to meet
the needs of the EMD Phase of the acquisition process. To mitigate that problem,
the Comanche Project Office was reorganized to correspond to the major efforts
within the program: air vehicle, engine, sensors, communications, supportability,
systems engineering, and business. The organization chart in Appendix J,
describes the current structure of the Comanche Project Office.

Contractor Program Office Reorganization. The contractor’s old management
structure was not effectively organized for the EMD Phase. The previous
contractor structure included a Joint Program Office located in Huntsville,
Alabama; a Boeing Office located in Philadelphia, Pennsylvania; and a Sikorsky
Office located in Stratford, Connecticut. Each office had a program director with
a complete staff. Under the reorganized structure, those original contractor
offices merged into one Contractor Program Office located in Bridgeport,
Connecticut, a liaison office in Washington D.C., and a liaison office in
Huntsville, Alabama. The merger resulted in a decrease in the number of
personnel from 73 to 38. See the charts in Appendix K for the previous contractor
organizational structure and Appendix L for the present structure. Combining
those three offices into one office minimized duplication of effort and improved
communications, accountability, and authority.

The Program Director for the Contractor Program Office is the former Program
Director of the Comanche Joint Program Office. The Deputy Program Director
for the Contractor Program Office is the former Program Director for the Sikorsky
Office. The joint venture charter was designed to ensure fair representation
between Boeing and Sikorsky by having the director represent one company and
the deputy director represent the other company. New positions were created to
include Human Resources; Program Independent Analysis; Information Systems;
Quality; and Supplier Management. According to Contractor Program Office
personnel, employees who work for Boeing may now be under the direction of a
Sikorsky employee, a Boeing employee may direct a Sikorsky employee, or a
subcontractor employee may direct Boeing and Sikorsky employees. Also, the
contractors have made significant progress in upgrading the quality and
experience level of personnel assigned to the Comanche Program.

According to the Comanche Project Office and the Contractor Program Office,
weekly meetings are held to ensure adequate communication between the two
offices. Weekly meetings are also held between the Contractor Program Office
and the subcontractors. During our interviews, the subcontractors emphasized


                                    8
that communication has significantly improved with the Contractor Program
Office. The subcontractors believe the Contractor Program Office adequately
provides requirements to the appropriate level.

Integrated Product Team Concept. IPTs are defined as teams composed of
representatives from appropriate functional disciplines working together to build
successful programs, identify and resolve issues, and make recommendations for
courses of action. There are three types of IPTs that serve as advisory bodies to
the project manager:

       •   overarching IPTs that focus on strategic guidance, program
           assessment, and issue resolution;

       •   working level IPTs that identify and resolve program issues, determine
           program status, and seek opportunities for acquisition reform; and

       •   program level IPTs that focus on program execution and may include
           both Government and contractor representatives.

Comanche IPT Structure. The alignment of IPTs in the Comanche Project
Office and the Contractor Program Office is a key element of RCOA. The
Comanche Project Manager and Contractor Program Director co-chair a
management process that emphasizes the “teaming concept,” and IPTs include
both Government and contractor participants. The Comanche Project Manager
believes this enables IPT members to rapidly react to variations in their respective
areas of cost and risk, but with sufficient control measures in place to preclude
changes to the contract. The Comanche Project Office and the Contractor
Program Office formed four levels of management structure to assist in
coordinating activities within and across IPTs.

       •   Level I Program IPTs include Weapon Systems Engineering and
           Integration, Chief Engineer, Operations Team, Supportability, Quality,
           Business Management, and Supplier Management. Level I Program
           IPTs are responsible for identifying and managing program risk,
           weapon system specifications and interface control documents, the
           program execution plan, program schedules, and process control
           configuration and change. The Weapon Systems Engineering and
           Integration IPT is co-led by Comanche Project Office and Contractor
           Program Office engineering representatives and focuses on Process
           Improvement. Its eight groups are tasked with system engineering and
           requirements management, performance assessment, configuration
           management, data management, system safety, program integration,
           planning and resource management, and program security. The
           Comanche Chief Engineer heads the Aircraft Systems IPT. He is also
           the Chief Technical Officer. The Operations Team consists of three

                                     9
           IPTs: subassembly, major assembly, and final assembly. The
           Supportability IPT is co-led by the Contractor Program Office
           Supportability Director and the Project Management Office Division
           Chief. Only supportability disciplines that produce a product are
           standalone IPTs, such as the training system, the technical
           publications, and the support equipment. Supportability disciplines
           that are not stand-alone IPTs provide coordination and oversight, and
           requirements dissemination to the appropriate IPTs.

       •   Level II System IPTs are responsible for system schedules, system
           specifications and interface control documents, requirement
           traceability, standards and standard practice, compliance and waivers,
           change accountability, and system risk. The chief engineers for the
           Comanche Project Office and the Contractor Program Office have
           responsibility for four Level II IPTs, the air vehicle, mission
           equipment, test and evaluation and technology systems. The Air
           Vehicle IPT includes Comanche Project Office representatives,
           Contractor Program Office representatives, and five subcontractors.
           The Mission Equipment IPT includes representatives from 11 major
           suppliers. Supplier teleconferences and IPT meetings are held on
           various days of the week.

       •   Levels III and IV Product IPTs are responsible for hardware and
           software, drawings and databases, product cost and schedule,
           performance and quality, and associated risks. Each IPT meets once a
           week to discuss progress and associated issues. There are 25 Level III
           and IV Product IPTs.

IPT Improvements. Under the previous IPT structure, the Comanche Project
Office and the Contractor Program Office IPTs were not closely aligned.
Subsequent to the realignment of the Comanche Project Office and Contractor
Program Office IPTs, the contractor and its subcontractors stated that they
perceived an increased level of communication and integration participation at the
product IPT level. They also said that communication between subcontractors
and the Contractor Program Office improved since the restructure.

The Comanche Project Manager and contractor believe that the IPT oversight
coupled with published minutes documenting IPT plans and decisions will
provide the Comanche Project Office added assurance that contract tasks remain
within scope. Although the contractor has employed IPTs in the past, there have
been concerns that the approach lacked clear lines of authority and decision
making authority. Those concerns have been addressed in the current restructure.
See Appendix M for the IPT structure. The IPT process includes daily, weekly,
monthly, and quarterly meetings with Contractor Program management, directors,
and the Comanche Project Management Office.

                                    10
    Production Line Organization. In July 2002, the Contractor Program Office
    had a consultant team perform a study of the proposed Comanche production line
    in the Bridgeport, Connecticut, facility. According to the Contractor Program
    Office, the study organized the production line to reduce staging points and floor
    space, so that the aircraft can be assembled faster, more proficiently, and within
    the current confines of the facility. The Contractor Program Office originally
    focused the configuration of the facility on the EMD Phase, and planned to
    expand the Bridgeport facility for full rate production. The study focused on
    transitioning from low rate initial production to full rate production, where it
    began with the last production element of the helicopter and worked back through
    the production flow. The study eliminated the need for facility expansion by
    reducing major assembly floor space by 56 percent, final assembly floor space by
    43 percent, parts storage by 40 percent, and parts travel throughout the facility by
    40 percent. It also eliminated the use of cranes in major assembly, and reduced
    the number of cranes used in final assembly. According to the Contractor
    Program Office official, in November 2002, the Boeing production facility in
    Philadelphia, Pennsylvania, went through a similar study for the Comanche main
    rotor blade and fantail blade production line.


Conclusion

    Historically, the Comanche has experienced funding problems, changing
    requirements, and technology issues that resulted in four previous restructures.
    Comanche Project Office personnel stated that they reported a baseline breach on
    September 2001, which resulted in the fifth restructure of the program. The
    Under Secretary of Defense for Acquisition, Technology, and Logistics approved
    RCOA for the latest restructure in October 2002. As a result, the Comanche
    Program uses a Block approach for development, production and fielding that is
    designed to meet user mission needs, as required over time. To make the program
    executable, additional funding was provided for EMD, a new baseline was
    established, delivery of the first-unit-equipped aircraft was extended 7 months, the
    first Comanche aircraft with initial operational capability was extended
    33 months, and the Comanche Program added all component qualification testing.
    To achieve success with the restructure, the Army and the prime contractor
    reorganized the management structure, established more effective IPTs, and made
    use of outside studies and assessments to evaluate the Comanche Program. The
    risk management process was improved to increase awareness of all risk items
    across multiple echelons of IPTs, and incorporate risk mitigation step
    management at the lowest appropriate IPT level. Not withstanding the recent
    constructive actions, continued emphasis is needed to ensure that technical and
    system integration issues will not arise that could result in future breaches of
    program cost, schedule, and performance measures.


                                         11
Appendix A. Scope and Methodology
   We reviewed documentation dated from June 1988 through October 2002. We
   used criteria and references cited in the Memorandum of the Secretary of Defense
   on, “The Defense Acquisition System,” October 30, 2002; DoD Instruction
   No. 5000.58 "Defense Acquisition Workforce," January 14, 1992 (administrative
   reissuance incorporating through Change 3, January 31, 1996); Interim Defense
   Acquisition Guidebook, October 30, 2002; and Army Regulation 70-1 "Army
   Acquisition Policy," December 15, 1997.

   We met with Comanche Project Office personnel and contractor personnel to
   discuss schedule and organizational changes initiated under the latest restructured
   program. We interviewed subcontractor and Defense Contract Management
   Agency representatives at Northrop Grumman, General Dynamics, Hamilton
   Sundstrand, Kaiser Electronics, TRW, Northrop Grumman Navigation Systems
   Division (formerly Litton Guidance), BAE Systems, Lockheed Martin, and Harris
   Corporation to identify their involvement with the Comanche Program through
   the various IPTs. We also met with personnel from the Cost Analysis
   Improvement Group to discuss their review of the Comanche Program.

   The following was based on information provided by personnel within the
   Comanche Project Office. The Comanche Program was going through a
   restructure during the audit fieldwork timeframe. The Comanche Program’s
   schedule was changed to meet its recommended restructure. Funding continued
   in accordance with the original funding profile. The contract amendment, based
   on the restructured program, was signed November 14, 2002. The Comanche
   Project Manager stated that monthly performance reporting would not be based
   on actual cost of work performed until February 2003. Beginning in February
   2003, cost performance reports will report the status of performance as required
   by the Interim Defense Acquisition Guidebook, October 30, 2002, which
   implements the guidance in American National Standards Institute/Electronic
   Industries Alliance Earned Value Management System Standard 748-98, May 19,
   1998. The Statement of Work and the work breakdown structure had not been
   completed. Therefore, there was no post restructure performance data available to
   assess Comanche cost, schedule, and performance for the restructured program.

   We performed this audit from July 2002 through March 2003 in accordance with
   generally accepted government auditing standards. We did not test management
   controls because data related to program performance after RCOA did not exist at
   the time fieldwork was conducted.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.


                                       12
      Use of Technical Assistance. We did not use technical assistance to perform this
      audit.

      General Accounting Office High-Risk Area. The General Accounting Office
      has identified several high-risk areas in DoD. This report provides coverage of
      the DoD Weapon Systems Acquisition high-risk area.


Prior Coverage

      During the last five years, the General Accounting Office (GAO) and the
      Inspector General of the Department of Defense (IG DoD) have issued five
      reports discussing the RAH-66 Comanche. Unrestricted GAO reports can be
      accessed over the Internet at http://www.gao.gov/. Unrestricted IG DoD reports
      can be accessed at http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. GAO-01-450, "Comanche Program Objectives Need to Be
      Revised to More Achievable Levels," June 7, 2001

      GAO Report No. GAO/NSIAD-99-146, "Comanche Program Cost, Schedule, and
      Performance Status," August 24, 1999

IG DoD
      IG DoD Report No. 99-021, "Acquisition Management of the Comanche
      Program," November 8, 1998

      IG DoD Report No. 98-185, "Financial Management of the RAH-66 Comanche
      Helicopter Program," August 6, 1998

      IG DoD Report No. 98-125, "Protection of the Comanche Helicopter Against
      Radio Frequency Weapons," April 28, 1998




                                         13
Appendix B. Comanche History
   The following history of the Comanche Program was based on information and
   documentation provided by personnel in the Comanche Project Office:

   December 1983. The Office of the Under Secretary of Defense approved the
   family of light helicopter program to enter the Concept of Exploration and
   Development Phase with an estimated cost of $3.0 billion for development.

   August 12, 1984. Acquisition Plan No. 1 for the Light Helicopter Experimental
   Program was approved. The objective of the program was to provide an
   affordable family of aerial vehicles with all weather and night operation
   capabilities to replace the current aging, obsolete light fleet. Production was
   scheduled to start no later than FY 1990. The project was described as a light
   rotorcraft development program consisting of one vehicle for armed
   reconnaissance and attack roles and a common variant for utility missions.
   Program goals included a primary mission gross weight range of 7,500 -
   8,500 pounds for the scout and attack aircraft; average unit-fly-away cost of
   $5 million in FY 1984 dollars; and a production quantity of 4,500 aircraft.

   June 26, 1985. Acquisition Plan No. 2 was approved with an estimated
   development cost of $4.0 billion. Production was scheduled for FY 1992.
   Program goals included a primary mission gross weight range of 8,500 pounds for
   the scout and attack aircraft and a single pilot utility aircraft.

   July 28, 1986. Acquisition Plan No. 3 was approved with an estimated
   development cost of $3.2 billion. The acquisition and plan was updated to
   address an Army Material Command innovative approach for maintaining
   competition within funding constraints and maximizing risk reduction prior to
   full-scale development. Program goals included a single pilot scout and attack
   aircraft; a single pilot utility aircraft; significant combat capability and
   survivability improvements; a primary mission gross weight of 8,000 pounds
   (plus or minus 500 pounds) for the scout and attack aircraft; and a unit flyaway
   cost, in constant FY 1984 dollars, not to exceed $6 million for the scout and
   attack aircraft and $4 million for the utility aircraft.

   February 18, 1987. Acquisition Plan No. 4 was approved with an estimated
   development cost of $4.4 billion. The schedule risk of that strategy was assessed
   to be low to medium. A 66-month competitive development was planned with a
   contract to be awarded in January 1988. The program structure scheduled the first
   flight in April 1991, low-rate-initial production contract award in June 1993, and
   the initial operational capability in November 1995. Program goals included a
   single pilot scout and attack aircraft and a single pilot utility aircraft; significant


                                         14
combat capability and survivability improvements; a primary mission gross
weight of 9,500 pounds for the scout and attack aircraft; and a weighted average
unit flyaway cost goal of $6.3 million in FY 1984 dollars.

January 20, 1988. The Secretary of Defense issued an acquisition decision
memorandum stating the light helicopter, as presented in the FY 1988-1989
President’s Budget and subsequent Defense Acquisition Board reviews, was no
longer a viable program for affordability reasons. The Army was directed to
refocus the light helicopter program to develop and acquire a light-weight, low-
cost helicopter for the light attack and armed reconnaissance missions to replace
the aging AH-1 Cobra and OH-58/OH-6 fleets with a program composed of a
single variant light helicopter comprising a total procurement quantity of
approximately 2,100 aircraft.

June 1988. The Defense Acquisition Board approved the refocused Light
Helicopter Program to enter Milestone I, Program Definition and Risk Reduction
Phase. The aircraft was required to have an empty weight of 7,500 pounds and a
unit flyaway cost of $7.5 million dollars in FY 1988 dollars, and a procurement
quantity of 2,096 aircraft.

June 17, 1988. The Deputy Secretary of Defense approved the Light Helicopter
Program to proceed into the Demonstration and Validation effort. Major
emphasis would be to develop and integrate the mission equipment package
technology rather than airframe development and to structure the program so that
appropriate technological advancements could be used to upgrade the present
inventory of various helicopters.

August 1990 (first restructure). The Secretary of Defense directed the Army to
restructure the Light Helicopter Program. The number of production aircraft was
reduced to 1,292 units. Full-scale production was deferred and the Demonstration
and Validation Phase was extended an additional two years. The restructure also
added prototype testing and scheduled initial operational capability production for
the end of 1998.

January 1991. The Under Secretary of Defense for Acquisition directed that the
Longbow Radar be integrated on the Light Helicopter. The Boeing and Sikorsky
team was awarded a contact to complete the Demonstration and Validation effort.
The period of performance was from April 1991 through July 1995, with an
option for a 39-month Engineering, Manufacturing, and Development Phase. The
contract also called for the manufacture of prototype aircraft.

April 15, 1991. The Department of Army announced that the Light Helicopter
had been renamed the RAH-66 Comanche.




                                    15
January 29, 1992 (second restructure begins). The Secretary of Defense
directed the Comanche Program to submit a plan to restructure its development
contracts to prove-out all critical components, including avionics, an upgraded
T800 engine, and the Longbow system.

January 4, 1993 (second restructure approved). The Under Secretary of
Defense issued an Acquisition Decision Memorandum authorizing the restructure.
The memorandum authorized Comanche to proceed with the program
commensurate with the funding outlined in Alternative Number 2, Program
Budget Decision 702, dated December 11, 1992. Alternative Number 2 supported
a Demonstration and Validation Phase program that included three prototypes,
flight-testing of the growth engine, and additional effort on the turreted gun.

September 30, 1993. The contractor was directed to defer work on the Aided
Target Detection and Classification, commonality effort, growth engine
integration, and training from FY 1994 to FY 1995, and to delete work efforts on
the Longbow.

October 29, 1993. The Military Deputy to the Army Acquisition Executive and
the Comanche Project Manager agreed to a new streamlining plan, designated
Replan I, which merged the current Demonstration and Validation Phase with
aspects of the Engineering, Manufacturing, and Development Phase to accelerate
initial operational capability and reduce acquisition cost.

March 1994. Replan II was initiated to provide direction for avoiding program
inefficiencies, and de-scope work based on budget shortfalls.

December 9, 1994 (third restructure begins). The Secretary of Defense
announced that the Comanche Program would be restructured as a technology
program leading to two flyable prototypes and no production aircraft.

February 28, 1995. The Army Acquisition Executive Officer approved the
Comanche Project Manager’s acquisition strategy for submission to the Defense
Acquisition Board. The acquisition strategy provided for two prototypes and six
Early Operational Capability aircraft for warfighter evaluation. The strategy also
required initial operational capability in 2006.

March 21, 1995 (third restructure approved). The Under Secretary of Defense
issued an Acquisition Decision Memorandum approving the Army’s restructure
plan to continue the Demonstration and Validation Phase. The Memorandum
approved the two prototypes, and six Early Operational Capability helicopters
configured with the reconnaissance mission equipment package.

November-December 1997 (fourth restructure begins). The Comanche Project
Manager initiated planning to restructure the Pre-Production Prototype Plan. The
restructure plan would reduce technical risk, accelerate the fire control radar
                                    16
development, and field a fully capable production configuration aircraft at initial
operation capability. The plan would use existing program funding resources and
replace the six Early Operational Capability aircraft with six pre-production
prototypes and eight initial operational test and evaluation aircraft. That would
reduce the inefficiencies of maintaining a significantly different Early Operational
Capability configuration.

July 27, 1998 (fourth restructure approved). The Under Secretary of Defense
for Acquisition, Technology, and Logistics approved the Pre-Production
Prototype Plan. The Plan accelerated Comanche Radar development and the
fielding of a fully capable production configuration aircraft at initial operational
capability in September 2002.

April 2000 (Milestone Decision). Milestone II approval validated the technology
of the individual subsystems and risk reduction efforts, and paved the way to
begin integration and testing of the total aircraft system in engineering,
manufacturing, and development.

April 2000 (Engineering, Manufacturing, and Development Phase). The
Under Secretary of Defense for Acquisition, Technology, and Logistics issued an
Acquisition Decision Memorandum that approved the Comanche to enter the
EMD Phase, and established a low-rate initial production quantity of up to
84 aircraft. The EMD Phase initiated an acquisition Block approach. To address
the design and schedule risks, the program was structured with the following
explicit objectives:

       •   optimize program efforts within available resources;
       •   recognize cost growth and schedule extensions;
       •   ensure that all program risks are addressed and do not exceed a
           moderate level;
       •   apply DoD 5000 evolutionary acquisition strategy via a blocking
           process that provides an initial training capability and initial fielding of
           mission capable systems with provisions to incorporate additional
           planned requirements;
       •   incorporate emerging Objective Force requirements; and
       •   ensure that all aircraft configuration and software functionality is
           aligned to the blocking process and meets Army requirements as
           defined by the most recent approved Operational Requirements
           Documents; and adjust all program hardware and software deliverables
           to ensure successful completion.




                                     17
Those objectives would allow continual configuration and functionality upgrades
increasing the capabilities from Initial Training Capability through Block I, II,
and, finally, Block III. Subsequent Blocks would provide for future capabilities.

Design and development of the armed reconnaissance and attack Mission
Equipment Package was to be completed during documentation, tooling, and
manufacturing efforts. Flight-testing of prototype number two was to focus
primarily on risk reduction efforts including integration and demonstration of the
software and Mission Equipment Package. The program was to develop and
integrate the Comanche Radar concurrent with airframe development.
Component, subsystem, and flight-testing were required to evaluate the design.

September 1, 2001. The Comanche Project Manager informed the Secretary of
the Army and Chief of Staff that Milestone II cost and schedule commitments
could not be accomplished.

December 2001 (fifth restructure begins). The Army Chief of Staff approved
interim direction to discontinue the Milestone II program and re-plan
Engineering, Manufacturing, and Development Phase work for 2002 and beyond.

April 18, 2002. The Contracting Officer for Comanche issued a Letter of
Instruction to the Boeing Sikorsky Team requesting that a proposal for the
restructured program be submitted by September 16, 2002.

October 7, 2002. The Defense Acquisition Board approved the restructure of the
Comanche Program.

Oct 17, 2002 (fifth restructure approved). The Under Secretary of Defense for
Acquisition, Technology, and Logistics issued a memorandum approving the
Block structure as proposed by the Army and authorized EMD through Block III
capability, the Acquisition Strategy, the Acquisition Program Baseline, 73 low
rate initial production aircraft, and a total procurement quantity of 650 aircraft at a
rate of up to 60 per year. The Defense Acquisition Board will reassess the
Comanche procurement quantity and annual buy rate at the Future Combat
Systems’ Milestone B review scheduled for May 2003. The Army is to program
the research, development, test, and evaluation, and procurement funds to comply
with the CAIG estimate and the Cost Analysis Improvement Group funding
profile.




                                      18
Appendix D. Management Tenure
           DoD Instruction No. 5000.58 "Defense Acquisition Workforce," January 14,
           1992, administrative reissuance incorporating through Change 3,
           January 31, 1996, states that the project manager and the deputy project manager
           of major defense acquisition programs shall be assigned to the position, at least
           until completion of the major milestone that occurs closest in time to the date on
           which the person has served in the position for 4 years. That requirement may be
           waived for the following reasons: humanitarian reassignment, discharge, or
           retirement; relief of dutiesIntegrated Product Team Organization and
           reassignment in the interest of the DoD; promotion, where promotion in place is
           not allowable.

           Since June 1991, there have been four Project Managers for the RAH-66
           Comanche:

                     •   Colonel Robert Birmingham                           September 2000 – present*

                     •   Brigadier General Joseph Bergantz,                  June 1997 - July 2000
                         (promoted to Major General as the
                         Program Executive Officer for
                         Aviation)

                     •   Brigadier General James Snider,                     September 94 - July 1997
                         (has since been promoted to
                         Major General)

                     •   Brigadier General Orlin Mullen,                     June 1991 - August 1994
                         (Retired)

           According to the Comanche Project Office, since 1986, there have been three
           Deputy Project Managers for the RAH-66 Comanche:

                     •   Mr. Frank Wallace,                                  May 2002 – present*

                     •   Mr. Darrell Harrison,                               1994 – May 2002

                     •   Mr. Bob Hubbard                                     1986 – 1994




*
    Those persons were still in their position as of the date of report publication. (Based on auditor’s recent
    conversations with Colonel Birmingham and Mr. Wallace)

                                                        20
Appendix E. Block Requirements
           Block I (Production Lots 1-3). Block I aircraft will be First Unit Equipped and
           Initial Operational Capabilities aircraft capable of conducting armed
           reconnaissance and attack missions. They also have an Embedded Battle
           Command on the Move capability. As part of this block strategy, the aircraft will
           accurately designate for and launch the Hellfire Missile and 2.75 inch rockets.
           The aircraft are fully interoperable with joint and combined arms team members
           and enhance the Air-Ground Maneuver Team by improving Beyond Line-of-Sight
           and joint communications with ultra-high frequency and variable-high frequency
           (voice/digital/secure), satellite communication, and Enhanced Position Location
           and Reporting System. Block I aircraft will also possess the unmanned aerial
           vehicle Level II control and Turreted Gun System.

           Block II (Production Lots 4-5). Block II aircraft are required to be equipped
           with the capability to control unmanned aerial vehicle with the Tactical Common
           Data Link. The aircraft are also required to be equipped with additional
           communication capabilities for beyond line-of-sight and joint operations with
           Link-16.* Block I aircraft will be upgraded to Block II configuration.

           Block III (Full Rate Production Lots 6 and Beyond). Block III aircraft are
           required be equipped to bring more stowed kills to the fight in support of the air-
           ground maneuver team and self deployment operations using auxiliary fuel tanks
           to conduct operations intra-theatre and outside the continental United States.
           Block III aircraft are required to be equipped with the Enhanced Fuel and
           Armament Management System that improves the Comanche’s ability to engage
           targets with direct precision fires to help provide actionable combat information
           and enable the aircraft to maneuver out-of-contact and survive. Block III aircraft
           are also required to be equipped with sensor fusion between the onboard sensors
           to improve the ability to detect, identify, and affiliate by allowing aided
           recognition of targets. Block II aircraft will be upgraded to Block III
           configuration as appropriate.




*
    Link-16 is a high capacity, anti-jam, secure, extended line-of-sight, flexible communication, navigation
    and identification system.

                                                       21
Appendix G. FY 2003 Performance Tasks
   The major tasks for FY 2003 changed under RCOA. The following are examples
   of major tasks for FY 2003 broken down by the Mission Equipment Package, Air
   Vehicle, and Supportability functions of the program:

   The major tasks for the Mission Equipment Package in FY 2003 include:

          •   Electro-Optical Sensor System risk reduction for Aircraft No. 2
              delivery;

          •   Electro-Optical Sensor System Development,

                 − hot bench unit assembly and checkout,
                 − Aircraft No. 4 unit assembly and test, and
                 − begin weight-improvement program unit redesign;

          •   Clear Voice Integrated Communication, Navigation, Identification
              Avionics development through integration test;

          •   Digital Clear Voice Integrated Communication, Navigation,
              Identification Avionics hardware and software integration;

          •   continue Comanche Radar risk reduction efforts; and

          •   processors and displays delivered to hot bench.

   The major tasks for the Air Vehicle in FY 2003 include:

          •   continue component support for Aircraft No. 2, which is under-going
              testing at West Palm Beach;

          •   weapon system critical design review with component breakout
              scheduled for April 28, 2003;

          •   production start for Aircraft No. 3, No. 4, No. 5, and No. 6;

          •   weight improvement redesigns for the electrical systems and
              component parts;

          •   indemnification of hardware and software integration across the
              Project Management Office, refine interdependencies to meet
              Operational Requirements Document requirements; and

          •   develop the T802 engine by LHTEC for aircraft production.

                                       23
The major tasks for Supportability in FY 2003 include:

       •   continue logistic support analysis, diagrams, and reliability,
           availability, and maintainability documents in support of the design;

       •   conduct first year of Core Depot Analysis; and

       •   initiate an Obsolescence Review Board.




                                    24
Appendix H. Risk Mitigation
           The Comanche risk management process was designed to identify areas that
           require special attention and close scrutiny during the design and development
           phase so that technical performance, cost, schedule, supportability, and
           producibility goals of the Comanche Program are achieved. During the normal
           design, build, and test activities, the IPTs conduct analyses, identify issues, and
           assess the impact of those issues on the compliance with program requirements
           and schedule. The risk management program is a continuous evaluation process,
           with monitored risk items and associated ratings changing over time. RCOA
           mitigated the original Milestone II Program risk items by expanding the schedule
           and providing additional resources. It also identified the need for more technical
           details in the risk mitigation plans. The original Milestone II process emphasized
           program-level tracking only for high-risk items; however, the revised risk
           management process stresses increased awareness of all risk items across multiple
           echelons of IPTs, and risk mitigation step management at the lowest appropriate
           IPT level. According to the Comanche Project Office, moderate risks are
           monitored in a similar manner as high risks. Since the risk assessment process is
           continuous, new items have been identified during the restructuring refinement,
           but no high risks have been identified. The Milestone II program did list high-
           risk items; however, the Army directed that the restructured program could not
           have any high-risk items.

           The Comanche risk management software tool was developed by the Government
           Comanche Project Office to support the overall Comanche risk management
           program. The objective was to provide a standardized set of risk assessment
           criteria and to make those assessments available, on-line, to all members of the
           Comanche team, including subcontractors and vendors, who need them. The tool
           is used to establish a program risk baseline, document abatement plans, and
           monitor risk status. Each IPT team accesses the risk management tool and its data
           through the use of interactive screens. That allows members to document all their
           risk mitigation and reduction planning in a centralized database.

           Different levels of the IPTs at the subcontractors were interviewed to determine
           how they identified and mitigated risks. Most of the IPTs use a risk criteria
           identification process similar to the one used by the Comanche Project Office.
           The risk management process begins when an Analysis and Integration Team, an
           IPT, a subcontractor, a supplier, or the program management office identifies a
           risk element. The risk element is then analyzed using a standard assessment of
           risk factors* to determine if the risk is high, moderate, or low. If the risk is placed

*
    The risk factors included in the determination of risk level are: design, technology, manufacturing,
    production, material, personnel resources, test, software, complexity, and dependence.

                                                       25
in the high or moderate level, then the appropriate level IPT will create an
abatement plan, with milestones, which is integrated with the Comanche Program
schedule. Risks are tracked and reported on a monthly basis at the program level,
which allows for quick action; therefore, mitigating the impact of the risk.

The Comanche risk monitoring method includes a tiered review process where
each risk item, from lowest IPT level to program level, is assessed and re-assessed
for potential impacts at the higher level. For example, a high risk, at a Level III
IPT, may have alternative options available at the next or higher echelon (Level II
IPT), thereby mitigating the magnitude of the risk at the higher IPT organization
levels. For example, the lowest level in Figure 1 represent the Level III Sensors
IPT, which handles the day-to-day activities. The middle level is the Level II
Mission Equipment Package IPT, which has oversight to all Mission Equipment
Package activities, to include the Level III Sensors IPT. The top level is the
Program Level I Chief Engineer, which provides oversight to the Level II Mission
Equipment Package IPT.




    There can and will be different
    risk levels at different
    Organization Levels




    Example:                            Program Risk                    Aircraft System
                                            Aircraft weight
   Weight Risk                           Aircraft has working
                                      W eight Improvement Plans


                                                                                 Mission
                                         Level II Risk                           Equipment
                             This level has W eight Improvement Plans
                              Electro-Optical Sensor System is over,
                                                                                 Package
                                    but other systems can cover

                                                                                      Sensors
                                         Level III Risk
                              Electro-Optical Sensor System cannot
                                     meet its weight allocation

 Source: Comanche Project Office
Figure 1. Tiered Risk Assessment and Management

Risk Examples. According to the Comanche Project Manager, the weight of the
aircraft will always be a risk. Therefore, the program developed weight
improvement plans to see where weight could be reduced. Also, Block II
hardware will focus on weight reduction items.



                                              26
There is also a risk that the Electro-Optical Target Acquisition Designation
System and Night Vision Piloting System Image, may smear or “bloom” during
weapons fire. The risk abatement plan calls for monitoring at system level for
weapons flash and for bloom adverse effects during armament integration.

As of October 18, 2002, the Comanche Project Manager reported that there were
no high risks at the program level; however, he reported 19 moderate risks carried
at the program level, with abatement plans created for each risk. See Figure 2 for
a listing of the 19 moderate risks.



      Mission Equipment Package                                               Mean Time to Repair
        Software Deliveries
      Subsystem Power Unit
        Compartment Temperature

                                                    5                            Ballistics -Vulnerable Area
                                                                                 Inlet Ice/Low Observable Protection
     Weapon System Integration                                                   Antenna Performance
     Spring Wear Input Vibration                    4                                 and Radar Cross Signature
                                       Likelihood




         and Life Impact                                                             Characteristics
     Diminishing Manufacturing                                                   Radar Cross Signature Performance
         Sources                                    3                            Fault Isolation Performance
     Snubber Damper Life                                                         End to End System
     High Pressure /Humidity Filter                                                   Detection/Lethality
     Seal Radar Cross Signature                     2
         Performance
     Environmental Control System
         Heat Load Growth                           1                              Main Rotor Blade Design/Fabrication
     Production Weight                                                             Aircraft Roll Response
                                                        1   2    3    4   5
                                                            Consequence



          = low
          = moderate                  19 Moderate Program Risks as of
          = high
                                             October 18, 2002


   Source: Comanche Project Office

   Figure 2. Comanche Program Level Risk Matrix




                                                            27
Appendix I. Third Party Assessments
   Three independent Comanche Program assessment reports were completed prior
   to the Defense Acquisition Board’s decision on October 7, 2002. The Comanche
   Project Manager stated that the following assessment reports were used to
   develop the program restructure strategy: the Office of the Secretary of Defense
   Tri-Service Assessment Initiative; the Integrated Mission Equipment and
   Armament Functionality Rack and Stack Process; and the Graybeard Comanche
   Assessment.

   The Office of the Secretary of Defense Tri-Service Assessment Initiative. The
   Office of the Secretary of Defense Tri-Service Assessment Initiative was carried
   out between June and November 2000. The initial assessment focused on the
   transition of the Comanche Program for Program Definition and Risk Reduction
   to EMD, software related issues, diagnostics, and force interoperability. The
   assessment team included the Comanche Program Management Officer; and
   representatives from the Tank-automotive and Armament Command, Armament,
   Research, Development and Engineering Center; Aviation and Missile Command
   (US Army); Naval Air Systems Command, and the first team subcontractors. The
   assessment team information sources were program team interviews, Comanche
   documents, program review briefings, Overarching IPT Milestone II presentation
   material, external reports (General Accounting Office), Comanche software
   models, lessons learned from similar programs, and other information.

   The Assessment determined that the first order priorities were system engineering
   management and organizational program enablers. Under the system engineering
   management approach, the Comanche Program would establish and integrate
   system level processes, resources, management, responsibility, and leadership.
   There would be a systems engineering focus across the Comanche Program and
   an established end-to-end system engineering authority. Systems engineering
   discipline was an issue area under systems engineering management. Two of the
   team’s recommendations appear to have been implemented as part of RCOA.
   One recommendation was the designation and empowerment of a single program
   systems engineer, a hardware engineer, a software engineer, systems integrator, a
   systems architect, a systems test manager, and a systems configuration manager
   with authority over all developer organizations. The second recommendation was
   designating Government equivalents to contractor personnel.

   The Integrated Mission Equipment and Armament Functionality Rack and
   Stack Process. In 2001, Richard R. Bruckman Associates was tasked to address
   the un-executability of the Comanche Mission Equipment and Armament
   Functionality segment. Bruckman Associates recommended that the Comanche
   Program:


                                      28
   •   maintain initial operational capability,

   •   conduct a 6-month initial operational test and evaluation prior to initial
       operational capability,

   •   perform low rate initial production unit qualification in FY 2007,

   •   use producible configuration for low rate initial production units,

   •   start Block I in FY 2005 with Milestone III in FY 2009,

   •   conduct a 6-month operational test and evaluation prior to Milestone III,

   •   use qualified low rate initial production units for Block I and operational
       test and evaluation, and

   •   defer functionality and sensor and weapons candidates.

The Graybeard Comanche Assessment. In March 2002, a Graybeard
Comanche assessment panel consisting of senior civilian, and active and retired
military officials concluded that the Comanche program should go forward but
not as proposed by the Comanche Program Management Officer. The panel
recommended that the EMD contract be changed to:

   •   incentivize weight reduction without compromising capability, operational
       availability, service life, and operations and sustainment cost;

   •   tie executive compensation and penalties to contract performance;

   •   tie award fee to milestone deliverables; and

   •   use a combined incentive fee and award contract.

In addition, the panel made recommendations that would:

   •   require rigorous, independent technical assessment to evaluate technical
       and operational concerns;

   •   rebaseline and stabilize program requirements and funding;

   •   shift to an evolutionary acquisition strategy with spiral development;

   •   ensure contractor systems engineering is adequately staffed, equipped, and
       managed;

   •   complete a validated cost estimate;

                                     29
•   direct development of network-centric system of systems test, simulation,
    analysis, and evaluation capability; and

•   test the gun and feed system on the aircraft to demonstrate accuracy,
    structural integrity, and reliability.




                                30
Appendix N. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, U.S. Army Aviation and Missile Command
  Program Executive Office for Aviation
  Program Director, Comanche Project Office

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services



                                          36
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        37
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Mary L. Ugone
Charles M. Santoni
Sean Mitchell
Averel E. Gregg
Patricia A. Joyner
Bridget D. Yakley
Ann A. Ferrante
